No.

20-7650

In The

Supreme Court of tfie tHniteti g>tate«
In re BO ZOU

— PETITIONER

VS.

LINDE ENGINEERING NORTH AMERICA. INC. — RESPONDENT

PROOF OF SERVICE
I, BO ZOU. do swear or declare that on this date, May 14, 2021. as required by
Supreme Court Rule 29, I have served the enclosed REPLY BRIEF FOR
PETITIONER on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.
The names and addresses of those served are as follows:
Jonathan G. Rector, 2001 Ross Avenue, Suite 1500, Lock Box 116,
Dallas, TX 75201
I declare under penalty of perjury that the foregoing is true and correct. Executed
on May 14, 2021.

RECEIVED
MAY 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

(Signature)

